<html>
<title> - HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 3, 2002

                               __________

                           Serial No. 107-212

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                      U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2003 

87-138 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                 MAJOR R. OWENS, New York
ADAM H. PUTNAM, Florida              PAUL E. KANJORSKI, Pennsylvania
JOHN SULLIVAN, Oklahoma              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Bonnie Heald, Deputy Staff Director
                        Justin Paulhamus, Clerk

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 3, 2002.....................................     1
Statement of:
    Hecker, JayEtta, Director, Physical Infrastructure Issues, 
      General Accounting Office; James Bogner, Special Agent in 
      Charge, Omaha Division, Federal Bureau of Investigation; 
      Lieutenant Tim Conohan, emergency preparedness coordinator, 
      Omaha Police Department; Paul R. Wagner, fire chief, city 
      of Omaha; Steven Hinrichs, M.D., director of Nebraska 
      health laboratory, director of microbiology and virology, 
      department of pathology/microbiology, University of 
      Nebraska Medical Center; and Philip W. Smith, M.D., chief 
      of infectious diseases, department of internal medicine, 
      University of Nebraska Medical Center......................     4
    Heineman, David, Lieutenant Governor, State of Nebraska; 
      Richard A. Raymond, M.D., chief medical officer, State of 
      Nebraska; Richard Hainje, region VII, FEMA; W. Gary Gates, 
      vice president, Nuclear Division, Omaha Public Power 
      District; Steve Lee, director, Douglas County Emergency 
      Management Agency, Douglas County Health Department; and 
      Pete Neddo, manager of safety and security, Metropolitan 
      Utilities District.........................................    77
Letters, statements, etc., submitted for the record by:
    Bogner, James, Special Agent in Charge, Omaha Division, 
      Federal Bureau of Investigation, prepared statement of.....    30
    Conohan, Lieutenant Tim, emergency preparedness coordinator, 
      Omaha Police Department:
        Letter dated July 25, 2002...............................    75
        Prepared statement of....................................    44
    Gates, W. Gary, vice president, Nuclear Division, Omaha 
      Public Power District, prepared statement of...............   105
    Hainje, Richard, region VII, FEMA, prepared statement of.....    92
    Hecker, JayEtta, Director, Physical Infrastructure Issues, 
      General Accounting Office, prepared statements of..........6, 120
    Heineman, David, Lieutenant Governor, State of Nebraska, 
      prepared statement of......................................    80
    Hinrichs, Steven, M.D., director of Nebraska health 
      laboratory, director of microbiology and virology, 
      department of pathology/microbiology, University of 
      Nebraska Medical Center, prepared statement of.............    53
    Lee, Steve, director, Douglas County Emergency Management 
      Agency, Douglas County Health Department, prepared 
      statement of...............................................   112
    Raymond, Richard A., M.D., chief medical officer, State of 
      Nebraska, prepared statement of............................    85
    Smith, Philip W., M.D., chief of infectious diseases, 
      department of internal medicine, University of Nebraska 
      Medical Center, prepared statement of......................    63
    Wagner, Paul R., fire chief, city of Omaha, prepared 
      statement of...............................................    49

  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK

                              ----------                              


                        WEDNESDAY, JULY 3, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                         Omaha, NE.
    The subcommittee met, pursuant to notice, at 9:04 a.m., in 
the Private Dining Room, University of Nebraska Medical Center, 
45th and Emile Streets, Omaha, NE, Hon. Stephen Horn (chairman 
of the subcommittee) presiding.
    Present: Representatives Horn and Terry.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; Justin Paulhamus, 
clerk; Chris Barkley, staff assistant; and Michael Sazonov, 
Sterling Bentley, Joe DiSilvio, and Yigal Kerszenbaum, interns.
    Mr. Horn. A quorum being present, the hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating acts ever committed on U.S. soil. Despite the 
damage and enormous loss of life, the attacks failed to cripple 
this Nation. To the contrary, Americans have never been more 
united in their fundamental belief in freedom and their 
willingness to protect that freedom.
    The diabolical nature of those attacks and then the deadly 
release of anthrax sent a loud and clear message to all 
Americans. We must be prepared for the unexpected. We must have 
the mechanisms in place to protect this Nation and its people 
from further attempts to cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communications systems and rapid deployment 
of well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there 
remains serious doubts as to whether the Nation is equipped to 
handle a massive chemical, biological or nuclear attack.
    Today the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in this 
great State of Nebraska and the good people of Omaha to know 
that they can rely on these systems and they should.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the front lines. We want to 
hear about their capabilities and their challenges and we want 
to know what the Federal Government can do to help.
    We welcome all of our witnesses and look forward to their 
testimony. This is an investigating committee of the full 
Committee on Government Reform and we swear in all witnesses 
and we will do that in a minute. Your statements, which we all 
have read are very fine statements. And when I call on you, 
actually it will be Congressman Terry, he will move from one 
person to the next as the agenda shows and that is 
automatically in the record of the court reporter. We just want 
a summary of your document because we are on a time schedule 
and we are going to need to be here until 11. So if you will 
stand and raise your right hand and have the people behind you, 
if they are going to give testimony.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all have affirmed. We 
thank you and I will now turn over the gavel to my colleague, 
Lee Terry. He has been an outstanding Member of the House of 
Representatives and we admire his work and tried to be helpful 
in a number of things. He will conduct this because he knows 
many of you and we have asked him to do that.
    So he will start with the first person, which I will 
mention that one, and that is JayEtta Hecker. She is the 
Director of Physical Infrastructure Issues, U.S. General 
Accounting Office. That is the Office under the Comptroller 
General of the United States--a 15-year term, so Presidents and 
Congress cannot do much if they do not like it. He has done a 
marvelous job, the best I have ever seen over the last 30 
years.
    So we will have a 3-minute summary by Ms. Hecker and at the 
end, she will have a summary if we have lost a few pieces here 
and there.
    Mr. Terry [presiding]. Thank you. Chairman Horn, I want to 
begin by thanking all of our witnesses today. I appreciate that 
you took time away from your jobs in protecting our community 
to be here today for what I consider an extremely important 
matter, of coordinating between governments to make sure 
everyone is working together for the same goal of protecting 
and serving our community in case something tragic should 
happen.
    I also want to thank our congressional staff, we have many 
of our staff members here, Chairman Horn, who helped work with 
your incredible staff to organize today's event. Particularly I 
want to point out next the University of Nebraska Medical 
Center who is, of course, hosting this event. I think as you 
will find through the testimony today, you will be impressed, 
not only with the University of Nebraska Medical Center and how 
progressive they have been in making sure our community is 
prepared to handle any biological, chemical or nuclear attack 
or incident, but also how impressed I think you will be with 
the State, our utilities, our police, our fire, our FBI--all 
those that have come here to testify today.
    And last, I want to thank you, Chairman Horn. You are one 
of the, if not the, hardest working chairmen in Congress today, 
and for the audience that is here today, Chairman Horn held a 
similar hearing in Milwaukee yesterday and the University of 
Vanderbilt Medical Center the day before.
    His task as the chairman of the Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations, particularly in the field of biological, chemical 
and nuclear preparedness, is to gather data. And Steve--
Chairman Horn is known by his colleagues as being the academic 
on that committee. So if there is anyone that can best gather 
and articulate the data into needs and goals, it is Chairman 
Horn.
    So that is what the purpose of this hearing is today, to 
elicit the testimony from all levels of Government, to see what 
we are doing in Omaha, what the University of Nebraska is 
doing, what we are doing at the State level. So it is not just 
Omaha, Papillion and Bellvue, but Burwell and Funk, Nebraska--
across the State.
    Chairman Horn and his great staff will then sort through 
piles of testimony and information, work with Government 
agencies such as the General Accounting Office, GAO, and come 
up with a report and recommendations of how we can best 
partner.
    As Chairman Horn mentioned in his opening statement, life 
changed for all of us on September 11th.
    Many of my colleagues went to Congress thinking of police 
and fire as a local issue. After September 11th, we can no 
longer think that way. We are all members of the same team now, 
at different levels of responsibility. And unless there is 
coordination between all levels of Government, from the Omaha 
Police Department, the Fire Department to our FBI, through our 
State to FEMA, we will have weak links. Weak links break and 
somewhere in our community, people will go unserved and 
unprotected. We in Congress cannot allow that to happen.
    So, Chairman Horn, thank you for the effort that you are 
putting forth in touring States and localities across our 
Nation, and since you are from the California, Long Beach area; 
thank you for going to the heartland and not just the big 
cities of L.A. and San Francisco, but to the medium size cities 
such as Omaha, Nebraska.
    And in my conclusion I will say, I am so confident that you 
will be impressed with the testimony that you will hear today 
that you could probably make some recommendations to those 
larger cities, because I think we are doing several things 
right here in this community.
    So again, thank you for taking time, and welcome to Omaha.
    With that conclusion of my opening statement, it is 
somewhat unusual--I used to be on the Government Reform 
Committee, but switched to the Energy and Commerce Committee, 
so Steve is allowing me--I am sorry--Chairman Horn is allowing 
me to be an ad hoc member and even so kind to let me handle the 
gavel for awhile, although----
    Mr. Horn. Just do not use it on my head.
    Mr. Terry. You know, power.
    I call on JayEtta Hecker. Thank you for being here today.

STATEMENTS OF JAYETTA HECKER, DIRECTOR, PHYSICAL INFRASTRUCTURE 
ISSUES, GENERAL ACCOUNTING OFFICE; JAMES BOGNER, SPECIAL AGENT 
  IN CHARGE, OMAHA DIVISION, FEDERAL BUREAU OF INVESTIGATION; 
  LIEUTENANT TIM CONOHAN, EMERGENCY PREPAREDNESS COORDINATOR, 
 OMAHA POLICE DEPARTMENT; PAUL R. WAGNER, FIRE CHIEF, CITY OF 
   OMAHA; STEVEN HINRICHS, M.D., DIRECTOR OF NEBRASKA HEALTH 
 LABORATORY, DIRECTOR OF MICROBIOLOGY AND VIROLOGY, DEPARTMENT 
   OF PATHOLOGY/MICROBIOLOGY, UNIVERSITY OF NEBRASKA MEDICAL 
    CENTER; AND PHILIP W. SMITH, M.D., CHIEF OF INFECTIOUS 
   DISEASES, DEPARTMENT OF INTERNAL MEDICINE, UNIVERSITY OF 
                    NEBRASKA MEDICAL CENTER

    Ms. Hecker. Good morning, Mr. Chairman and Mr. Terry, we 
are very pleased to be here. I will very briefly summarize my 
full statement.
    The key points that I want to make really are two; one is 
about the proposed department and some views that the GAO has 
about that. And second, the importance of the national strategy 
that is yet to be developed and our concerns about the scope of 
what ought to be in that strategy.
    Now about the department, the key thing is that GAO has 
been studying terrorism preparedness programs and counter-
terrorism activities and has concluded and recommended for a 
number of years the importance of better Federal coordination. 
Both our work and the reports by emergency managers at the 
State level, as well as the experience of a lot of the 
exercises has shown that Federal programs have not been well 
coordinated, and organizations and different levels of 
government have not worked together as well as they could.
    So there has really been an absence of Federal leadership 
and coherence in the assistance to and building of effective 
partnerships that you would expect from the Federal role.
    Those are the kinds of things that we look for in the 
department. We think that there is an important role for the 
Congress to look at that proposal. We have a number of concerns 
about what is included in the department and what is out. For 
example, our review in the area of bioterrorism notes that 
there is a potential for an increase of fragmentation by 
bringing 300 people and I think $4 billion of activity from HHS 
on bioterrorism into this new department. The proposal breaks 
bioterrorism off from those similar activities that would still 
be ongoing and that are core public health programs in HHS.
    So it is not easy to establish where you draw the line, and 
there is a very active role for Congress to play in weighing 
those considerations.
    The second point about the strategy. There are three things 
that we look for in the strategy and we do not believe that the 
proposal that has been put forward represents a strategy. It 
was due last month and now it has been deferred, so it is 
something you would actually like to see before the department 
is created, as its role presumably is to implement the 
strategy. But in any case, the strategy is yet to come out and 
there are three levels of detail that we would like to see in 
it.
    First is greater clarity about the different roles of 
government.
    Second is more implementation of a performance oriented 
organization--performance management, a focus on performance, 
not just programing this much money, this many people. What are 
the results, what is the impact?
    And finally, clarity on the appropriate tools that really 
build incentives and partnerships.
    So in sum, the State and local governments are critical to 
effective homeland security, and while there are many aspects 
of getting a department to work, an absolutely essential part 
is building these effective partnerships. That is why we 
applaud the work of this committee and are working actively 
with Mr. Horn on better understanding the challenges in 
building effective intergovernmental relations. We think this 
is the absolutely perfect way to do it, to hear from these 
folks about what the concerns are, what their experience is 
with Federal programs and have that be key input to the 
department.
    So I too look forward to the statements and continue to 
stand ready to provide support for the committee.
    Thank you, Mr. Chairman and Mr. Terry.
    Mr. Terry. Thank you. As some of you know who have 
participated in hearings in the past, we let everyone testify 
and then if there are any questions from Mr. Horn or from me, 
that is when we will ask them.
    Mr. Bogner is the Special Agent in Charge of the Omaha FBI 
Division and he has been very active in our community in 
helping develop our task forces. September 11th, certainly he 
and I met and toured the facility and had an interesting 
briefing of the role of FBI in that particular situation. I 
appreciate all of your efforts and the fact that you are here 
in our community. We welcome you and thank you. You may start.
    [The prepared statement of Ms. Hecker follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.001
    
    [GRAPHIC] [TIFF OMITTED] T7138.002
    
    [GRAPHIC] [TIFF OMITTED] T7138.003
    
    [GRAPHIC] [TIFF OMITTED] T7138.004
    
    [GRAPHIC] [TIFF OMITTED] T7138.005
    
    [GRAPHIC] [TIFF OMITTED] T7138.006
    
    [GRAPHIC] [TIFF OMITTED] T7138.007
    
    [GRAPHIC] [TIFF OMITTED] T7138.008
    
    [GRAPHIC] [TIFF OMITTED] T7138.009
    
    [GRAPHIC] [TIFF OMITTED] T7138.010
    
    [GRAPHIC] [TIFF OMITTED] T7138.011
    
    [GRAPHIC] [TIFF OMITTED] T7138.012
    
    [GRAPHIC] [TIFF OMITTED] T7138.013
    
    [GRAPHIC] [TIFF OMITTED] T7138.014
    
    [GRAPHIC] [TIFF OMITTED] T7138.015
    
    [GRAPHIC] [TIFF OMITTED] T7138.016
    
    [GRAPHIC] [TIFF OMITTED] T7138.017
    
    [GRAPHIC] [TIFF OMITTED] T7138.018
    
    [GRAPHIC] [TIFF OMITTED] T7138.019
    
    [GRAPHIC] [TIFF OMITTED] T7138.020
    
    [GRAPHIC] [TIFF OMITTED] T7138.021
    
    Mr. Bogner. Good morning, Chairman Horn, Congressman Terry. 
I appreciate and value the opportunity to testify before you 
today.
    As part of the reorganization plan, Director Mueller stated 
to all FBI employees that the FBI's goal in counterterrorism is 
prevention. It is not, as in the past, only reacting to attacks 
and bringing terrorists to justice.
    While investigating terrorist acts remains the FBI's 
highest priority, our primary goal is prevention of future acts 
of terrorism. This does not mean that prosecution is not 
important; prosecution is an absolutely critical element of 
prevention. But making clear that the goal is prevention rather 
than prosecution will mean enhanced emphasis on intelligence 
gathering, analysis and proactive initiatives. Counterterrorism 
is our top priority.
    We in the Omaha Division of the FBI have embraced Director 
Mueller's message and implemented numerous initiatives. The 
Omaha office covers the two States of Iowa and Nebraska, a 
territory spanning two time zones and extending from the 
Mississippi River to the foothills of the Rocky Mountains. It 
is approximately 800 miles from eastern border to western 
border of our FBI Division. We encompass three Federal judicial 
districts. We have the main headquarters in Omaha, along with 
eight resident agencies throughout the two States, three 
additional offices in Nebraska and five additional offices in 
Iowa. Our territory includes distinctly different regions of 
the country, ranging from urban industrial centers to midwest 
farmlands and agricultural communities to the ranch lands of 
the great plains. The vastness of the territory and the 
resulting differences in regional culture and crime problems 
require us to maximize and leverage our resources and to 
exercise some flexibility and innovation in our investigations 
and operations.
    We, with our city, county, State and other Federal 
counterparts recognize that partnership is the most effective 
means of countering terrorism. This partnership, when 
formalized, generally takes the form of a joint terrorism task 
force, otherwise known as JTTF. The process of forming a JTTF 
in the Nebraska and Iowa areas reflects the unique and 
expansive nature of the territory, which is why I gave you that 
information on the record about this territory.
    In trying to address terrorism matters in an 800-mile wide 
two-State territory required innovation and so we believed that 
it was important, not to have just a single investigative 
entity or joint terrorism task force, but one composed of five 
elements throughout the two States. This was our premise and to 
validate that, we sought input from the city, county, State and 
other Federal agencies. We held a series of informational 
meetings throughout the two States. We notified and invited all 
law enforcement agencies within those two States to attend. We 
had 171 representatives of the city, county, State and Federal 
law enforcement agencies attend those meetings where we 
presented the FBI counterterrorism strategy, the function of a 
typical joint terrorism task force and provided briefings, 
intelligence briefings, to those law enforcement agencies. And 
we proposed a unique concept to the joint terrorism task force 
by having five teams. I have provided you a map of those five 
teams so that you can see more clearly I think how they are 
formed and how they represent and can respond to the diverse 
geographic regions that our territory covers.
    Presently the joint terrorism task force consists of 110 
law enforcement agents or officers from more than 50 different 
agencies throughout the two States.
    One of the goals to provide the joint terrorism task force 
officers is training. In addition to training specifically for 
those partners, we have provided counterterrorism training to 
city, county, State and Federal agencies throughout the two 
States of Iowa and Nebraska, through many Police Chiefs 
Associations and law enforcement coordinating committee 
meetings and conferences.
    The Nebraska/Iowa Joint Terrorism Task Force has already 
conducted a very successful and high profile domestic terrorism 
investigation, despite the fact that the investigation occurred 
just 2 days after forming this joint terrorism, and this was 
the matter of the improvised bombs that were left inside 
mailboxes in the rural areas of Iowa, northwest Illinois, 
Nebraska, Colorado and Texas.
    The Joint Terrorism Task Force was mobilized within hours 
of the first explosions there, and the identification, 
location, apprehension and filing of charges against the 
individual occurred within 5 days of the first bomb being 
found.
    We worked very closely with the Nebraska State Patrol and 
the Iowa Department of Public Safety to establish secure 
communications with all law enforcement officials within those 
two States. In addition to those activities, we also have been 
involved in weapons of mass destruction or WMD preparedness and 
counterterrorism preparedness and training exercises.
    Every FBI office has a weapons of mass destruction 
coordinator, likewise do we. And that coordinator's job is to 
ensure that the various State and local agencies in Iowa and 
Nebraska are familiar with the assistance that the FBI can 
provide, as well as our protocol for responding to these 
weapons of mass destruction incidents. Our coordinator has 
conducted or participated in nine preparedness or training 
events within the last 3 years, and I have provided the 
committee with a list of those events.
    The Omaha Coordinator is also a member of a steering 
committee for the Omaha Metropolitan Medical Response System, 
or OMMRS, which I am sure you will hear additional information 
about. Representatives of all major health care facilities, 
public health officials in the Omaha metropolitan area 
participate in OMMRS. OMMRS' mission is to maximize 
preparedness and coordination in the health care community. 
They meet on a monthly basis. We have very actively 
participated in that and our coordinator is a member of that.
    The Division has participated in 10 exercises in the past 3 
years that I have noted and also provided you information on 
that.
    In the area of weapons of mass destruction investigations 
and operations, we are in constant contact with members of the 
law enforcement, fire and emergency management and medical 
communities. This partnership was clearly evident in the 
cooperation during the time period after September 11, 2001 
when anthrax hoaxes occurred in Iowa and Nebraska. In addition 
to these hoaxes, well-meaning citizens reported hundreds of 
suspicious packages and other items. Since October 2001 
nationwide, the FBI has responded to more than 16,000 reports 
of use or threatened use of anthrax or other hazardous 
materials and the Omaha Division has had this share of these 
reports. We have provided advice, guidance and response on more 
than 800 incidents of suspected or reported anthrax, physically 
responded to the scene approximately 75 times and have several 
pending investigations related to those threats or hoaxes.
    In the FBI Omaha Division, all investigations and 
preparedness responsibilities are conducted jointly with other 
law enforcement agencies and often with the appropriate fire 
and emergency response agencies. We believe that communication, 
coordination and cooperation are exceptional in the heartland 
here and in the Omaha Division and we strive to maintain and 
improve upon the relationships that we have built over the 
years.
    This concludes my prepared remarks and I express 
appreciation to this subcommittee for concentrating on this 
issue of terrorism preparedness. Thank you.
    Mr. Terry. Likewise. Thank you, Special Agent Bogner.
    Next is Tim Conohan from the Omaha Police Department, 
Lieutenant Conohan is in charge of the emergency preparedness 
for the city of Omaha--or the Police Department--sorry, Tim. He 
is the coordinator, and I appreciate that you took your time to 
be here and Tim and I were friends before we were--at least Tim 
became the famous police officer he has become. Tim, thank you 
for being here today.
    [The prepared statement of Mr. Bogner follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.022
    
    [GRAPHIC] [TIFF OMITTED] T7138.023
    
    [GRAPHIC] [TIFF OMITTED] T7138.024
    
    [GRAPHIC] [TIFF OMITTED] T7138.025
    
    [GRAPHIC] [TIFF OMITTED] T7138.026
    
    [GRAPHIC] [TIFF OMITTED] T7138.027
    
    [GRAPHIC] [TIFF OMITTED] T7138.028
    
    [GRAPHIC] [TIFF OMITTED] T7138.029
    
    [GRAPHIC] [TIFF OMITTED] T7138.030
    
    [GRAPHIC] [TIFF OMITTED] T7138.031
    
    [GRAPHIC] [TIFF OMITTED] T7138.032
    
    [GRAPHIC] [TIFF OMITTED] T7138.033
    
    Lieutenant Conohan. Thank you, Congressman Terry, and 
Chairman Horn, thank you for inviting us.
    Chief Kerry would have liked to have been here this 
morning, but he had a scheduling conflict, so he asked me to 
represent him and read a prepared statement. So with that, I 
will.
    The events of September 11, 2001 and the subsequent anthrax 
mailings that occurred shortly thereafter were a wake-up call 
for all public safety officials throughout this country. 
Although the Omaha metro area was spared from the death and 
destruction that occurred back east, our city did have to deal 
with perceived bioterrorism threats of anthrax being mailed 
through our postal system. We learned first hand that our 
public safety departments can become taxed to their limits when 
dealing with not only an actual bioterrorism incident, but a 
perceived threat as well.
    Although there were no actual cases of anthrax being sent 
through the postal system to anyone in the Omaha metro area, 
the fear that the public experienced in dealing with this 
bioterrorism event was indeed real. Our police, fire and 911 
departments handled hundreds of calls from citizens that 
thought they were the victims of a bioterrorism incident.
    The Omaha Police Department feels that there are several 
areas where the Federal Government can continue to be of great 
assistance and support State and local government when dealing 
with nuclear, biological and chemical events.
    The first one would be threat assessment equipment and 
personal protective equipment for first responders. It is 
imperative that first responders, police, fire and EMS have the 
necessary equipment to determine as quickly as possible the 
substances they are dealing with when responding to NBC type--
nuclear, biological, chemical type--incidents.
    They then must be able to don the appropriate personal 
protective equipment to allow them to function in this type of 
environment.
    We learned first hand how important it was to have the 
ability to assess quickly what type of threat we were dealing 
with. Omaha was indeed fortunate to have a bioterrorism 
preparedness lab in our city, located right here on the campus 
of the University of Nebraska Medical Center, it is a division 
of the Nebraska Public Health Lab. These labs allowed public 
safety officials the ability to quickly analyze the biological 
or chemical agents or the hoax material they were dealing with. 
The labs must be equipped and staffed properly to ensure quick 
response to bioterrorism threat incidents. These labs need to 
be a high priority. Public safety departments cannot formulate 
a response plan until they know what exactly they are dealing 
with and time is critical during these types of incidents.
    Second, we would like to see the Federal Government assist 
us with a best practices manual. We feel there is a need for 
the Federal Government to assist State and local public safety 
agencies in putting together a best practice manual when 
dealing with nuclear, biological, chemical terrorism incidents. 
There needs to be consistency throughout the country when 
dealing with these events. This will greatly enhance the City's 
ability to draw upon mutual aid from other cities during times 
of WMD incidents. We would ask that input from State and local 
agencies of various sizes be requested when putting together 
this type of manual to ensure that it will work for agencies of 
all sizes.
    Third, regional training for standardized response. This 
goes hand in hand with the completion of a best practice 
manual. State and local public safety agencies need the Federal 
Government's expertise in the field to assist us with training 
our people so there is a standardized response to these type of 
incidents.
    And last, public education to reduce fear. After what our 
city experienced last fall, we feel it extremely important that 
there is an education component to any response plan dealing 
with nuclear, biological, chemical type incidents. An informed 
public will have less fear and be less likely to panic when 
they have to deal with an NBC terrorism incident.
    Although Federal funding is a critical component to any 
State or local response plan for nuclear, biological, chemical 
incidents, we feel it is even more important that the Federal 
Government share its expertise in this area with State and 
local governments, so that standardized response plans can be 
created to assist us in dealing with incidents of this nature.
    The 2002 funding of the Office of Domestic Preparedness for 
State Domestic Preparedness Programs is a great start to 
assisting State and local governments with implementing 
response plans to deal with nuclear, biological and chemical 
type events.
    The Omaha Police Department thanks Congressman Terry for 
inviting us to speak before this committee and represent our 
community.
    Sincerely, Donald L. Carey, Chief of Police, Omaha Police 
Department.
    Thank you.
    Mr. Terry. Thank you, Lieutenant Conohan.
    Next we have our great fire chief for the city of Omaha and 
I have had the pleasure to work with Chief Wagner when I was a 
member of the Omaha City Council and also had the opportunity 
to work with his niece in Washington, DC. So you are never far 
away, Chief. Thank you for being here today. You may start.
    [The prepared statement of Mr. Conohan follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.034
    
    [GRAPHIC] [TIFF OMITTED] T7138.035
    
    [GRAPHIC] [TIFF OMITTED] T7138.036
    
    Mr. Wagner. Thank you. Good morning, Chairman Horn, 
Congressman Terry, I appreciate the opportunity to speak to 
this committee today.
    I am going to be a little bit more parochial. I think that 
what we are going to see in many of these subcommittee meetings 
is that there are needs that are probably going to be 
consistent for all metropolitan cities, and so I am going to 
speak from that point of view.
    I do have a prepared speech, I will try to make it brief 
and maybe reduce some of the time that it takes.
    I would like to thank the Federal Government and 
subcommittee for taking the time to address these issues. The 
Omaha Fire Department has been the beneficiary of Federal 
assistance to provide training for all its employees in weapons 
of mass destruction. We were fortunate enough to be probably on 
the cutting edge of this and it was very beneficial to us. We 
trained all of our personnel, which is very important when we 
respond to these kinds of events, and our expectation is that 
the potential is always going to be there, more so now than 
ever before. We were the beneficiaries of $300,000 worth of 
equipment, which was also very important to us, because once 
the training took place, this equipment was determined to be 
the necessary equipment needed for any response, looking at 
nuclear, biological and chemical.
    But there are problems with this and I think we have to 
look at those problems from a parochial point of view: Shelf 
life. There is a shelf life on some of these products and there 
is no program in effect to offer replacement without using city 
funds. With the budgetary constraints that we are all facing 
today, it would probably take a little priority with respect to 
our budget for just the everyday servicing of our citizens and 
being able to function as a fire department. And that is not 
good. It is certainly something that we need to look at. We do 
have some very fine facilities here, they have already been 
referred to, but I will refer to them again. The Nebraska 
Public Health Labs are one of the best and they are 
conveniently placed for the city of Omaha and the Omaha Fire 
Department right here.
    There is no recycling system. If we have equipment and we 
could recycle it through training, how can we do that--how do 
we allow that to be offered to other communities so that they 
can have the benefit of this equipment--not just the city of 
Omaha, but the outlying communities.
    Technological advances. We have improved equipment and they 
range from a variety of things--greater protection as in air 
purifying equipment, canisters that filter chemicals and can be 
updated. Less bulky, lighter weight and usable for greater 
lengths of time. Changes in the equipment that allow us to work 
in a more contaminated environment for longer periods of time 
safely.
    One of the issues for Omaha, as well as probably a lot of 
other communities, is that the equipment does not allow for 
vehicles to allow us to transport this equipment. We have been 
able to utilize some funds to buy trailers, but one of the most 
important aspects of any response is how quickly we can get 
there. And I think we have to look at if this is designated for 
weapons of mass destruction, can we utilize these funds to buy 
equipment that would allow us to take the equipment to the 
scene immediately? We have agreements now with some trucking 
companies who have been very considerate in offering us help. 
But we have to get them to have a truck and a driver come to 
the scene of our equipment storage and then trailer it to an 
event. This is all very time-consuming and can affect the 
impact of what we can do when we arrive at the scene. And I 
think it is very important to look at these as potential uses 
for funds that will benefit everyone.
    Omaha Fire Department views itself as a regional response 
for hazardous materials. With respect to that, we look at time 
response, trained personnel and the need to be able to function 
effectively and efficiently in the field. We have recently sent 
some of our personnel to Anniston, Alabama, where they have had 
additional training and learned a lot more about weapons of 
mass destruction, because we are learning more as time 
progresses.
    We need to be able to bring that training not only to the 
Omaha Fire Department, but to the regions surrounding us.
    With respect to that, I would like to thank this 
subcommittee for taking the time to listen to me. As a fire 
chief, we respond locally first and regionally second, but that 
can obviously change very quickly. We want to be able to 
provide the best equipment, the best training and the best 
offer to save lives as we can.
    And with that, I would like to thank you for taking the 
time. If there are any questions I can answer at the end of 
this, I would be very happy to. Thank you very much.
    Mr. Terry. Thank you, Chief, appreciate your testimony.
    Next is Steven Hinrichs, Dr. Hinrichs at the University of 
Nebraska Medical Center, he is the director of Nebraska Health 
Laboratory, director of microbiology and virology in the 
Department of Pathology and Microbiology. Dr. Hinrichs, thank 
you for spending your morning with us. You may begin.
    [The prepared statement of Mr. Wagner follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.037
    
    [GRAPHIC] [TIFF OMITTED] T7138.038
    
    Dr. Hinrichs. Thank you, Chairman Horn and Congressman 
Terry, I appreciate this opportunity to provide testimony.
    As part of my duties at UNMC, I have been named Coordinator 
of the University of Nebraska Bioterrorism Preparedness Task 
Force, and in addition, I work with the Nebraska Health and 
Human Services System as Director of the Nebraska Public Health 
Laboratory.
    The commitment, dedication and expertise of the people who 
have been brought together by the planning efforts of the State 
government, particularly under the direction of Lieutenant 
Governor Dave Heineman, have been unprecedented. We also 
greatly appreciate the coordinating efforts of our Chief Health 
Officer, Richard Raymond, and his efforts have been 
outstanding.
    It is apparent to everyone that we are facing a challenge 
with the potential to significantly alter and permanently 
change life as we know it in our Nation and, therefore, many of 
the traditional obstacles to progress have been set aside.
    I will provide summaries of my comments and recommendations 
on the following topics, but would be pleased to answer any 
specific questions as they might arise.
    My first comment relates to electronic information systems. 
Continued support is needed for development and deployment of 
electronic information systems. These systems must extend to 
the private sector including hospitals and laboratories. Many 
of the current systems are primitive and consist of only 
notification systems rather than direct communications that 
allow real time monitoring and exchange of information. The 
Nebraska Department of Health and Human Services can be a 
leader in this activity.
    My second comments relate to the National Laboratory 
Reserve Force. The national need exists for a reserve force of 
expert laboratory scientists capable of responding to national 
emergencies. These reserve scientists could be deployed during 
non-crisis times to provide training and connection to the 
front line laboratories throughout each State. This is the 
model that we are taking in Nebraska. The CDC has begun 
exploring mechanisms to meet this need similar to the one in 
Nebraska and this activity is one of the critical objectives of 
the new funding to States.
    The third area of activity is in the role of the 
universities. Universities and institutions of higher education 
represent a national resource and should be included in efforts 
to educate the public regarding threats from biological, 
nuclear and chemical agents, as well as the training of first 
responders and volunteer service providers. We also are capable 
of providing research into new approaches to identifying and 
responding to acts of bioterrorism.
    Universities can contribute expertise in areas related to 
both human, animal and crop diseases. However, universities 
also face significant challenges due to the need for enhanced 
security and the impact of the Patriot Act.
    The fourth point is that we need sustained effort over 
time. Continued support of public health efforts over several 
years is needed to facilitate the rebuilding of national 
capacity and the overall national laboratory system. The 
recruitment and training of new personnel to fill the need of 
expert scientists will take many years to accomplish.
    I would like to emphasize that we believe it is important 
to recognize that many of the biological, chemical and 
radiologic agents have the capability to affect humans, plants 
and animals and, therefore, a system to respond to these 
threats must incorporate the ability to communicate with not 
only the medical, but the agriculture communities as well. It 
would be inherently disjointed if efforts at both the research 
level and the application level were not capable of integrating 
the capabilities of the agriculture extension services of our 
State land grant universities and the medical services of our 
academic medical centers. Therefore, the most important test of 
any governmental reorganization effort must be whether the new 
agency is able to be cross cutting and unify diverse resources, 
not only within the Government, but also within our 
universities.
    We learned from the events following the anthrax attack of 
last fall that education of the public was one of the most 
important factors contributing to calming their fears. Dr. 
Smith will address this issue in more detail.
    In conclusion, many of the Government's efforts to prepare 
for and deal with bioterrorism have been effective. The success 
of our Government's ability to place technology into the able 
hands of educated citizens, health professionals and soldiers 
will have the single greatest impact on the outcome of this 
war.
    I encourage our Government to make effective use of our 
academic institutions as key partners and consider how current 
and future legislation, as well as any significant structural 
changes to Federal agencies, will impact the world's most 
effective higher education system.
    The University of Nebraska is prepared to contribute its 
capabilities to efforts by the President, Congress, State and 
local entities to develop a comprehensive and integrated plan 
to deal with future criminal acts using biologic agents. This 
is a complex task. UNMB and other institutions of higher 
education are prepared for this task. We can be effective 
strategic partners in this national effort.
    Thank you for inviting me to present this testimony.
    Mr. Terry. Thank you, Dr. Hinrichs.
    I would now like to introduce the chief of infectious 
diseases in the department of internal medicine, Dr. Philip 
Smith. Dr. Smith, you may begin.
    [The prepared statement of Dr. Hinrichs follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.039
    
    [GRAPHIC] [TIFF OMITTED] T7138.040
    
    [GRAPHIC] [TIFF OMITTED] T7138.041
    
    [GRAPHIC] [TIFF OMITTED] T7138.042
    
    [GRAPHIC] [TIFF OMITTED] T7138.043
    
    [GRAPHIC] [TIFF OMITTED] T7138.044
    
    [GRAPHIC] [TIFF OMITTED] T7138.045
    
    [GRAPHIC] [TIFF OMITTED] T7138.046
    
    Dr. Smith. Chairman Horn and Congressman Terry, thank you 
for the opportunity to testify. I will just briefly present a 
few excerpts from my written testimony.
    Basically you are asking us how the Government is doing in 
terms of coordinating the response to bioterrorism and I would 
have to say that the response has been excellent.
    First of all, there was quite a bit of planning in 
Nebraska, as there was nationally, prior to the bioterrorist 
attack of September and the anthrax attack of October 2001. The 
State Health Department contracted with the two universities 
and with the Nebraska Infection Control Network to develop some 
educational programs and to do a survey of institutions prior 
to the terrorist attacks occurring.
    The Nebraska Infection Control Network did a survey of all 
hospital and nursing home infection control practitioners in 
the State. Now keep in mind, in small communities, the 
infection control practitioners are often a resource for 
infectious disease emergencies such as a bioterrorist attack. 
They found last summer, not surprisingly, that only 2 percent 
of institutions felt they were prepared for a bioterrorist 
attack. After the attack occurred, there was a tremendous 
coordinated effort, and without a doubt, the Government, 
through the Nebraska State Health Department, has provided 
excellent leadership here. Dr. Dick Raymond, in the Health 
Department, has spearheaded this, he is the medical director. 
And there are many other institutions that are involved, 
including the universities who have provided hundreds of hours 
of education of public, physicians and other health care 
providers, with the information necessary on anthrax and other 
possible bioterrorist attacks.
    As we look ahead, I think we need to be prepared. It is an 
enormous task and many interested parties are involved. One of 
the key elements is collaboration between the Government, the 
health department and other parties. And I think one great 
example, just as we have seen with Dr. Hinrichs, is in the 
laboratory where the State Health Department and University of 
Nebraska Laboratory combined in their bioterrorism preparation 
efforts.
    We have proposed several ideas to the Health Department 
that are being considered for collaborative efforts. No. 1 is a 
multi-disciplined education task force; and No. 2, which I will 
not go into in detail, is a bioterrorism containment for small 
numbers of cases of a disease like anthrax or smalllpox that 
may occur and pose a hazard to the public.
    I wanted to comment briefly on our multi-organizational 
education program. We propose that all the interested parties 
in the area of medical bioterrorism prevention be brought 
together in a single committee structure, to do an inventory of 
the resources we have available and to coordinate a training 
effort, including looking at distance learning technology.
    There are many different players, and the types of 
organizations that we have represented on our proposed 
committee include organizations like the two universities, the 
Health Department, the Medical Society, the Hospital 
Association and Nursing Home Association, infection control 
practitioners, first responders, the two city emergency 
response systems in the State; namely, Omaha and Lincoln; and 
other interested experts in biocommunication, distance learning 
technology.
    So I guess in summary, I think that the State response to 
the bioterrorist attack was prompt and excellent and 
particularly in Nebraska, I feel that our Government worked 
very hard to provide coordination between the public and the 
private sector in the area of education, prevention, 
laboratory. And I hope that this spirit carries on as we move 
ahead.
    Bioterrorism is a very daunting task and there are many 
different players. I think the key role of the Federal 
Government here is to not only foster, but to insist on multi-
agency collaboration to minimize the chance that we are going 
to have duplication, and do the best job of protecting the 
public in the future.
    Thank you.
    [The prepared statement of Dr. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.047
    
    [GRAPHIC] [TIFF OMITTED] T7138.048
    
    [GRAPHIC] [TIFF OMITTED] T7138.049
    
    [GRAPHIC] [TIFF OMITTED] T7138.050
    
    [GRAPHIC] [TIFF OMITTED] T7138.051
    
    Mr. Terry. Thank you, Dr. Smith.
    At this time, the panel is subject to questions. Chairman 
Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    In your testimony, Dr. Smith, you state that a 2001 survey 
taken before September 11th found that less than 2 percent of 
Nebraska's hospitals and nursing home infection control 
practitioners felt they were prepared for a bioterrorist 
attack. If that survey were taken today, what type of response 
would you expect to see to the same question?
    Dr. Smith. A very good question. In fact, we plan to answer 
that scientifically by redoing the survey, but my guess is that 
the percent of people that are prepared for bioterrorist 
response at the present time would be much higher, perhaps 75 
percent. Almost 100 percent of hospitals and long-term care 
facilities have done some planning and are much better off than 
they were a year ago. I think many people realize we still have 
some details in terms of interagency collaboration and exactly 
who to call in the event of an emergency, getting correct 
communications, equipment and so forth. But I think 100 percent 
of institutions will say have improved and probably 50 percent 
of them will say they are close to being ready.
    Mr. Horn. Given limited resources, your suggestion to 
concentrate effort at university hospitals is well taken. How 
many and where are Nebraska's university hospital centers?
    Dr. Smith. There are two medical schools in Nebraska; the 
University of Nebraska and Creighton University. We work 
together on the pre-survey that I talked to you about earlier, 
and also would work together on my proposed collaborative 
training model that we have going ahead in the future.
    Mr. Horn. What would be the geographic area?
    Dr. Smith. The two medical schools are both in Omaha, both 
on the extreme edge of the State. But although both medical 
schools are in Omaha and the State is about 500 miles wide, we 
have many outreach programs, including outreach training 
programs, satellite telecommunications, so that even though the 
medical schools are on one edge of the State, they communicate 
well with constitutions outstate.
    Mr. Horn. How long would it take to transport patients from 
remote parts of the State to the two centers?
    Dr. Smith. As far as transport to the two centers, it can 
be done either by ambulance or by helicopter and transport--
because of the availability of the air transportation, 
transportation can be accomplished in a short time, in a matter 
of hours.
    Mr. Horn. When we were in Nashville and with Vanderbilt, 
the hospitals could not have any frequency to work with the 
military that is on another frequency when they bring patients 
and land on the roof of the hospital. Do we have any problem 
like that? You have got major groups in military, do we have a 
frequency between civilian and military?
    Dr. Smith. I cannot answer that. Can anybody? Paul Wagner, 
Fire Chief.
    Mr. Wagner. At the present time, we do not have that 
capability, Chairman Horn. However, I can tell you that at the 
present time, Douglas County is involved in an 800 megahertz 
system which will allow us to communicate with the hope that we 
will be able to bring these other agencies on line and at least 
provide them with the ability to communicate with us in the 
event of a weapons of mass destruction or anything of that 
nature. However, it is presently still being worked out in 
terms of the RFP for the equipment. So we are looking at a 
number of years down the road before we would even be able to 
do that.
    Mr. Horn. Could you discuss emergency room diversions at 
the medical center? Is it a problem, Dr. Smith?
    Dr. Smith. I am not sure what you mean.
    Mr. Horn. Well, could you discuss the medical room 
diversions at the medical center? I mean we find hospitals all 
over America have difficulty in terms of overcrowding and 
everything else, illegal immigrants, so forth and so on. So how 
do you deal with that, or is it a problem here?
    Dr. Smith. I think it is a problem in terms of hospital 
capacity being relatively full. There is not a shifting of 
individuals in the sense of deliberately shunting patients from 
one facility to another, but there are times, for instance, 
during an influenza outbreak in the community, when virtually 
all hospitals are full. And when a hospital becomes full, then 
patients are shunted preferentially to hospitals that have 
available beds. And at times, they have been shunted to other 
cities, such as Kansas City or Des Moines when hospital beds 
are not available here.
    When we are planning for a bioterrorist emergency, I think 
our initial discussions about a small unit, as was demonstrated 
on the east coast, you are probably going to be dealing with a 
small number of cases of anthrax or influenza or hemorrhagic 
fever or smallpox, and we think that a special containment unit 
should be available because of the concern of protecting the 
public and other individuals at the hospital from spread of 
that, especially before a diagnosis is necessarily made.
    The State Health Department, I know, is working on the 
potential of up to 500 cases of a bioterrorist agent and 
because of the hospital capacity being somewhat limited, that 
may involve creating field hospitals in situations such as 
gymnasiums and armories because the hospital capacity may not 
be there.
    Mr. Horn. The laboratories you have are very fine that go 
with the medical schools. How about parts of Nebraska where 
there is no hospital. What are we doing to get a laboratory 
that the community colleges or the smaller colleges would have. 
Do they need training when we are talking about a germ that we 
do not know really what it is, like botulism.
    Dr. Smith. That is a very good question, and what we 
believe is one area where Nebraska is setting an example for 
the rest of the country. And that is because we developed a 
program called the laboratory demonstration project in 
Nebraska. It was then funded by the CDC for us to hire an 
individual who would be able to go out and train as well as 
provide communication to all those small hospitals, small 
facilities throughout the State of Nebraska.
    We were in a situation because we had that operation in 
place at the time of the bioterrorist attack, to actually 
create information for all of those small facilities and 
distribute it across the State of Nebraska within a week 
following the anthrax crisis.
    So that is an extremely important issue. We feel that the 
rest of the States need a similar opportunity to develop that. 
And fortunately that program became one of the key aspects of 
the bill that was recently funded and is now flowing money to 
the States. So that exactly is the issue and we continue to 
work on that problem.
    Mr. Horn. Do you have a number of private laboratories that 
could do the work also?
    Dr. Smith. Well, that is exactly the issue, because the 
current situation is that the laboratory response network, 
which the current program sponsored by the CDC does not extend 
to the private sector and we believe that the private sector is 
really on the front lines. So our efforts have been to connect 
to the front lines those private laboratories, those private 
hospitals, in order to prepare them. And so in our plan, we 
have to have training planned and we have connectivity planned 
with all those private hospitals, those private laboratories. 
That is an extremely important issue, Congressman Horn.
    Mr. Horn. I am glad you had that answer, because I was not 
sure whether it was simply State, region, national. But we've 
got other people also?
    Dr. Smith. That is right.
    Mr. Horn. Good. Thank you.
    Mr. Terry. Tim, did you have a followup to Chairman Horn's 
concern?
    Lieutenant Conohan. Yes, I did. Chairman Horn, your 
question concerning the hospital emergency rooms and how do we 
handle situations like that. Omaha is very fortunate, and I 
think Special Agent Bogner mentioned it. We have a group that 
has been meeting for the last 3 years called the Omaha Metro 
Medical Response System. It is not only for the Omaha area, but 
it is for the whole metro area. It has received some Federal 
funding in 2000. This is a group of law enforcement, public 
health, hospital personnel. We have created a committee, I sit 
on the steering committee, along with one of Mr. Bogner's 
agents, that looks into exactly the things that you mentioned, 
about interpreters, if we run into issues related with 
immigrants that cannot speak and we are dealing with those type 
of situations. Omaha is very far advanced, I think, than most 
cities because of this Omaha Metro Medical Response System, and 
the Federal funding that was put in place to assist that is 
greatly appreciated.
    Again, that needs to extend throughout the State, but right 
now Omaha and Lincoln are really working together to ensure 
that the largest populated cities are being handled, and all 
those small, minute issues that could concern biological, 
chemical and nuclear weapons are being addressed when it comes 
to public health.
    Mr. Horn. Thank you.
    Mr. Terry. I had one particular question, Lieutenant 
Conohan, I wanted you to followup with OMMR and you did that.
    Special Agent Bogner, you had mentioned the JTTF, Joint 
Terrorism Task Forces. I am wondering how your JTTF works with 
OMMR, are they the same thing? Where do they overlap? I am 
particularly interested in how we develop the theme of the JTTF 
and OMMR. Is this unique? Could we copy it? Where are the voids 
and where can we as the Federal Government help in the process?
    Mr. Bogner. First of all, Congressman Terry, on the Joint 
Terrorism Task Force, those are the investigative units that 
consist of law enforcement officers and agents throughout the 
two States. So they conduct the investigations, gather the 
intelligence, hopefully do the analysis on them and then 
attempt to prevent any activities, or investigate them 
sufficiently in advance to interrupt any planned activities, 
not only locally here, but throughout the country, if we should 
get any information that might relate to any activity within 
the country, to gather that intelligence and pass it on to the 
appropriate elements and Joint Terrorism Task Forces in other 
parts of the country.
    On the OMMR, though I am not in the best position to answer 
that. That is more of I think a coordination group that was 
established for the health care and perhaps the Lieutenant can 
add to that because, I was not here in the initiation of that. 
But when I came, I was briefed about that association, not only 
the coordinated activity among those health care professionals 
and law enforcement professionals, fire and other first 
responders to it, but also the training initiatives that they 
have. We have participated in that because we feel that there 
are two stages, probably three stages, to these events. One is 
the initial incident and first responders to the initial 
incidents and the coordination is obviously very important 
there. Second, any investigation of--if it is proved to be a 
terrorist activity here, the investigation of that criminal 
act. And then third, consequence management after that.
    So that is more of a coordination group, I think. I am not 
sure who else would be best to respond to that.
    Lieutenant Conohan. I think Mr. Bogner, or Agent Bogner is 
right, that they are two separate entities, Congressman Terry. 
The Joint Terrorism Task Force deals with preventative issues 
where the Omaha Metro Medical Response System would deal with 
responding to an actual event.
    Mr. Terry. Thank you. I'm going to ask then, Lieutenant 
Conohan and Chief Wagner the next question, regarding 
equipment. In both of your testimony, you talked about 
equipment that is necessary for assessment, the extent of 
whatever incident has occurred, as well as protective personal 
equipment. Do you have any grasp in the Police Department and 
in the Fire Department what the totality of the cost would be 
to become prepared, knowing that you are front line defenders? 
We are going to hear from FEMA in a few minutes, but 
nonetheless, you are the first responders. What specific 
equipment is necessary and cost, have you been able to grasp 
that? And followup with, there have been Federal grant programs 
established. Do those need to become more flexible, for 
example, in COPS and COPS More programs? Are those flexible 
enough now that those can be used in the special circumstances 
of purchasing equipment and training of officers and firemen? 
Lieutenant Conohan first.
    Lieutenant Conohan. Well, let me let Chief Wagner, he 
outranks me, so he should go first. [Laughter.]
    Mr. Wagner. I only outrank him because I have some figures. 
[Laughter.]
    That is really a very good question. First of all, as I 
mentioned earlier, technology has advanced. Three years ago 
when we looked at how we respond to these events, we were using 
our self-contained breathing apparatus and airtight suits. 
These allowed us approximately 30 minutes of functional working 
time at best. And in the summertime when it is really hot, 
probably less because you are going to overheat quickly.
    There are now suits out there that allow us to work for 
hours on end, that allow us to stay cool within that 
environment. And we looked at the cost--as I said from the very 
beginning, I was being very parochial--and just with respect to 
the Omaha Fire Department, we are looking at approximately 
$50,000, which would allow us to function in an environment, 
have enough protective equipment to rotate crews and to do our 
jobs.
    From the point of view of a department the size of Omaha, 
where we are a little over 600 employees, obviously all 600 are 
not going to wear these, it is going to be our hazmat people. 
We are looking at possibly 20-30 people at a time that have to 
have enough suits and you have to be able to decontaminate 
them.
    We look at that as strictly what will work for us today. I 
could give you more specific numbers in terms of suits and 
actual cost, but these suits that we are looking at are the new 
technology that allow us to do a better job. And as time 
progresses, we are going to find more technology that will 
allow us to do even more. How do we keep up with these costs 
and providing the equipment to the necessary organizations that 
will need it. That's the question.
    Mr. Horn. If I might ask a question, just because I saw 
that $50,000 and I wondered how many uniforms does that really 
buy. Can you give us an idea of what the normal fire department 
needs in terms of the special type of oxygen and all the rest?
    Mr. Wagner. That is a good question. Obviously, as I said, 
we would not even try to outfit all of our people, it is 
strictly the hazmat trained personnel. Off the top of my head, 
I am going to say maybe 30 to 40 outfits, completely outfitted. 
You have to recognize that things are very costly. Self-
contained breathing apparatus alone is probably $1,500-$1,600, 
and when you replace bottles, then you have to have extra 
bottles.
    Mr. Horn. So it is $1,000 or $2,000, in that range.
    Mr. Wagner. At least $2,000, I would say, yes. I can get 
you the specifics and actually mail those to you, or e-mail 
them to you and I would be happy to do that.
    Mr. Horn. Without objection, it will be in the record at 
this point.
    Mr. Conohan. In regard to the Police Department, we are not 
at an adequate level to respond to these type of incidents 
because of a lack of personal protection equipment. We are in 
the process of purchasing as much as we can through our budget 
dollars, but we are going to be asking the State, through the 
Federal dollars that they are receiving, to assist us in the 
purchase of some personal protective equipment for our 
officers. Our officers will be the first to respond, and I 
think Chief Wagner understands, and police officers in the past 
have been referred to as blue canaries. You know, we respond, 
and we determine by falling to the ground and dying that we 
have got a hazardous situation there. And we usually get the 
calls before fire responds.
    So we do need a minimal amount of personal protective 
equipment. And the dollars would probably be $300 per person, 
that will allow us to have a negative pressure respirator, 
which is a gas mask basically, with filters that will filter 
out the agents and the biological agents that we would be 
dealing with when we respond. Also some type of protective suit 
that would also assist us. We would like to see a kit in each 
one of our cruisers for our officers to be able, if they 
receive a call to a situation, they can immediately put that on 
and then be there to help. It would be really unfortunate if 
all my officers had to back out and let fire handle a 
situation. You heard from Chief Wagner, not every one of the 
fire officers or firefighters have the necessary protective 
equipment at this time now. So it is critical that we do get 
the funding for the personal protective equipment.
    The Fire Department right now is the lead agency in regards 
to hazardous material incidents. We will assume a support role 
for fire and we will look to them for guidance and leadership, 
but there is definitely going to be a need for law enforcement 
to work within that environment and during that incident.
    We see that it is critical that we obtain the personal 
protective equipment for our officers.
    Mr. Horn. Just looking in the audience here, I would think 
there were people saying well, that is fine for the police and 
the fire department, how about me? Is there any type of gas 
mask or whatever? Has there been any discussion about that? And 
we will ask that also of the FEMA director on the next panel. 
But I realize that most of the professionals say well, we will 
solve that problem. The question will be, if you had let us say 
an airplane that was using pesticides and spraying the place 
and all the rest of it.
    Mr. Wagner. Once again, I think that is a good question. 
When we went through our weapons of mass destruction field 
exercise, one of the issues was what do you do with the public 
and is there anything that we can do. And to be very honest, if 
it is ingested, I am sure from a medical standpoint, you are 
already out of luck or you are going to have a number of people 
that are going to succumb to that.
    At the present time, there is not a method or tool or piece 
of equipment that we could put on the market and sell that I am 
aware of. Our response is that the sooner we get there and 
start decontaminating, the better the opportunity for 
survivability. And that is probably the answer that you are 
going to hear throughout the country at this point in time, 
sir.
    Mr. Horn. Lieutenant.
    Lieutenant Conohan. I would agree with Chief Wagner. I 
mean, you know, I am not going to stand here and say that we 
can protect the public from every one of these events. There 
are going to be casualties, you have to understand that. And I 
think most people do. What we can do is try to minimize those 
casualties through the efforts of both fire, police and the 
public health services. And you know, maybe eventually down the 
road, as more technology becomes available, maybe there will be 
something out there for the general public to be able to 
purchase and utilize in one of these events. But to my 
knowledge, I do not know of any right now. Again, we are in the 
process of trying to equip the first responders and we have not 
done that yet.
    Mr. Horn. Thank you.
    Mr. Wagner. May I add one thing, sir?
    Mr. Horn. Sure.
    Mr. Wagner. I think that no matter what happens, we are not 
going to recognize an event until people start actually falling 
down. And at that point, I think it is almost too late, when 
you say what can we put on to filter our air. And that is one 
of the problems with the weapons of mass destruction, is that 
we are going to respond to an event when we recognize the 
symptoms of that event.
    And so once again, I think that in many respects, it is 
going to be too late to be able to do something. It is how we 
react to it, how quickly we react to it and then recognize 
whatever that particular germ, whether it be chemical, 
biological or nuclear, whatever that event is. And that is 
going to fall back again to our field testing and then the 
labs.
    Dr. Smith. I would add just to that, I agree entirely, but 
upon infectious disease sampling, some diseases are secondarily 
spread and some are not. We are very fortunate that anthrax was 
not a disease that spreads from person to person, but if we do 
have a hemorrhagic fever or smallpox, then after the first 
wave, as Chief Wagner discussed, then this disease may still be 
spreading and that is why we depend on the special units for 
the early cases and our laboratory for making an early 
diagnosis.
    Mr. Horn. In your discussions with the CDC in Atlanta, they 
have vaccines on smallpox. Was there ever a discussion saying 
why are we not using this for the average citizen?
    Dr. Smith. We are very interested in that and the CDC is at 
the present time debating it, because there is some morbidity 
and mortality with the vaccine itself and since there have been 
no cases of smallpox since 1977, the issue is whether or not we 
should vaccinate the entire population with possibly one person 
in a million dying from the vaccine, or whether we should wait 
until there is an emergency and try to vaccinate and just 
stockpile vaccines. And a third strategy that the CDC is 
leaning toward right now I understand is that we vaccinate 
perhaps first responders, physicians and emergency personnel 
and then have a vaccine stockpile that we can activate very 
quickly to vaccinate the population.
    So we are very interested in the debate at the CDC about 
this right now. We do get calls from our citizens saying should 
I be vaccinated, but when we explain the situation, I think 
people are pretty understanding.
    Mr. Horn. Thank you for that answer.
    Mr. Terry. Lieutenant Conohan--no more questions for the 
panel, but I do want to ask if you could, if you have any 
numbers, assessment of the costs of providing equipment, if you 
could just provide that to me and I will submit it to the 
committee for the record.
    Lieutenant Conohan. Yes, I will.
    Mr. Horn. At this point in the record.
    Mr. Terry. At this point, right.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.052
    
    [GRAPHIC] [TIFF OMITTED] T7138.053
    
    Mr. Terry. With that, I excuse the panel. Thank you for 
coming today and providing your testimony. It was interesting 
and helpful.
    Mr. Horn. We are delighted with it.
    Mr. Terry. We will now call the second panel, our esteemed 
panel which consists of our Lieutenant Governor David Heineman; 
Richard Raymond, Dr. Raymond, Richard Hainje and Gary Gates, 
Steven Lee from Douglas County and Pete Neddo.
    And we will begin with our highest ranking public elected 
official our Lieutenant Governor. David Heineman has an 
extensive pedigree in politics and management, and we are 
fortunate that he is our Lieutenant Governor and has also been 
placed in charge of bioterrorism, terrorism preparedness for 
the State of Nebraska. And I think he is exactly the person we 
need to be in charge of that task.
    Before I request your testimony, I think we need to swear 
in this panel, so chairman, if you would.
    Mr. Horn. I want you to understand that the subcommittee is 
an investigating subcommittee and once we call on you, the 
chairman here today, that document goes right into the record, 
you do not have to read it word for word, just summarize it and 
then we can have a dialog.
    So if you would stand up, raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. Thank you very much.
    Mr. Terry. So Lieutenant Governor David Heineman, will you 
please start.

  STATEMENTS OF DAVID HEINEMAN, LIEUTENANT GOVERNOR, STATE OF 
  NEBRASKA; RICHARD A. RAYMOND, M.D., CHIEF MEDICAL OFFICER, 
 STATE OF NEBRASKA; RICHARD HAINJE, REGION VII, FEMA; W. GARY 
  GATES, VICE PRESIDENT, NUCLEAR DIVISION, OMAHA PUBLIC POWER 
    DISTRICT; STEVE LEE, DIRECTOR, DOUGLAS COUNTY EMERGENCY 
 MANAGEMENT AGENCY, DOUGLAS COUNTY HEALTH DEPARTMENT; AND PETE 
 NEDDO, MANAGER OF SAFETY AND SECURITY, METROPOLITAN UTILITIES 
                            DISTRICT

    Lieutenant Governor Heineman. Chairman Horn, Congressman 
Terry--Congressman Terry, I especially appreciate those 
comments, that is very kind of you.
    Let me try to limit my comments so we can get to that 
discussion, but I do want to start by emphasizing that Nebraska 
Governor Mike Johanns had the foresight to appoint a State 
Bioterrorism Task Force in 1999, 2 years prior to the tragic 
events of September 11, 2001. The mission of the task force was 
to assess the State's level of bioterrorism preparedness, to 
formally apply for grants from the CDC to increase laboratory 
capacity, to increase surveillance in epidemiology capacity, to 
develop a health alert network and to coordinate bioterrorism 
surveillance activities between the Nebraska Public Health Lab, 
county health departments and the State Department of Health 
and Human Services System. And I believe this emphasis has 
given us a head start in preparing for bioterrorism.
    The other key event that I want to mention to the committee 
is the Governor appointed a Homeland Security Policy Group last 
fall, that includes the Nebraska National Guard, Nebraska 
Emergency Management, State Patrol, Fire Marshal, the Secretary 
of Health and Human Services System and the Chancellor of the 
Med Center and the Governor's Policy Research Office. And I do 
want to note that we have an extraordinary asset in this State 
in the University of Nebraska Medical Center and we appreciate 
their efforts, particularly Chancellor Maurer and Dr. Hinrichs.
    As Lieutenant Governor and Director of Homeland Security, I 
chair the policy group. And the point I want to make about 
this, this structure is very critical because it keeps the 
focus on the development and implementation of a statewide, 
comprehensive homeland security policy strategy, rather than a 
fragmented departmental view of homeland security that I have 
seen in other States.
    I also want to make note for both of you that we appreciate 
the cooperation we have received from Governor Ridge and the 
Office of Homeland Security. If you are not familiar, we have 
had meetings with their staff back in Washington, DC, we do a 
conference call every other week with many States and that has 
been very, very helpful. And in particular, I think it is worth 
noting that when we had the pipe bomb incidents here about 2 
months ago, the Office of Homeland Security was in very close 
coordination and communications with our State Patrol, 
Emergency Management and myself and we particularly appreciated 
the outstanding support we received from the FBI.
    Regarding bioterrorism preparations, we are receiving $9.7 
million. Dr. Raymond here to my left, the State's Chief Medical 
Officer, will go into some detail about that but what I want to 
emphasize again is this comprehensive view that we have been 
trying to take, Congressmen. Even though the money is coming 
down from Health and Human Services to our Health and Human 
Services System, part of those funds will go to our Department 
of Agriculture for agri-terrorism. Part of the money will go to 
the University of Nebraska Medical Center and the Creighton 
University Medical Center for the education of health 
professionals throughout the State. And I think that is very 
helpful and the reason we have been successful is because it is 
being coordinated at the highest levels of our State 
government; i.e., the Governor's Office.
    In the near future, we expect to receive Federal funding 
for the needs of our first responders and we very much 
appreciate that Federal support, because an essential element 
to any effective bioterrorism response is the ability of all 
public safety agencies to communicate with each other. Chairman 
Horn, you had an earlier question, so I am pleased to note that 
Nebraska is moving forward with a new state-of-the-art wireless 
communication system that will allow all law enforcement, fire 
and emergency personnel to communicate with each other from 
Omaha to Scotts Bluff. I mention this because both the State of 
Nebraska and our local units of government are discussing a 
coordinated effort to use part of our respective portions of 
the proposed first responder dollars for our wireless 
communications system. And I also want to thank Congressman 
Terry, who is working with us on the associated infrastructure 
costs to receive hopefully some Federal funding for that.
    Finally, the State of Nebraska strongly supports the 
concept that all Federal funds should be coordinated and 
disbursed through the States in order to maintain a 
comprehensive, strategic focus to national, State and local 
homeland security efforts.
    Thank you.
    Mr. Terry. Thank you, Lieutenant Governor.
    Next is our chief medical officer for the State of 
Nebraska, Dr. Raymond.
    [The prepared statement of Lieutenant Governor Heineman 
follows:]
[GRAPHIC] [TIFF OMITTED] T7138.054

[GRAPHIC] [TIFF OMITTED] T7138.055

    Dr. Raymond. Chairman Horn, Congressman Terry, good 
morning. Congressman Terry, I am glad to see you rehydrated 
after the parade in Elkhorn on Saturday.
    Mr. Terry. Yeah.
    Dr. Raymond. I will try to just summarize my remarks also, 
Chairman Horn, so we have time for the discussion, which I am 
sure you would rather hear.
    First of all, as Chief Medical Officer, I am an appointee 
by the Governor, I do report directly to Governor Mike Johanns 
on all health-related issues in Nebraska and I also report 
directly to Lieutenant Governor David Heineman, particularly on 
bioterrorism issues, and most recently, of course, on the CDC 
grant and how we plan to spend that money.
    In addition, I see one of my roles to be a chief 
facilitator amongst agencies, both State, Federal and local, 
universities, local health departments, law enforcement, etc., 
to make sure that the dollars that we do receive are spent in a 
very coordinated and enhanced effort.
    I would like to express my gratitude to all the Federal 
officials who have kept myself and others in Nebraska very 
informed through the timely provision of information, their 
availability for consultation through prompt return of phone 
calls, their onsite visits for technical advice, their funding 
to address our capacity for bioterrorism response and other 
outbreaks of infectious disease and other public health threats 
and emergencies. The number of conference calls and online 
video presentations by the CDC and by the Health and Human 
Services and others has just been amazing and extremely helpful 
during these difficult times. They provided very important 
information and support for our epidemiologists and our public 
health officials.
    I would like to take just a little bit different slant this 
morning than the other testifiers who have gone before, and 
give you just a little history perhaps. You are probably aware 
of this, but for the public record, I want to make sure we 
emphasize it.
    In 1994, the defense against weapons of mass destruction 
began to fund major metropolitan communities for emergency 
response, as you have already heard from law and fire. We 
started receiving funding in the year 2000 in Omaha and 
received funding in 2001 for Lincoln. So our two major 
metropolitan areas have already begun advance planning. 
Needless to say, it has been enhanced and accelerated since 
September 11th.
    In 1999 the Federal Government gave money to the CDC to 
help States begin to prepare for bioterrorism. I think there is 
a great deal of foresight there and I think a lot of people 
thought maybe someone was smoking something funny when they 
allowed this money for bioterrorism. We looked at it as an 
ability to increase our public health infrastructure, whether 
we ever needed it for bioterrorism or not.
    Two of the grants we received, one you have heard reference 
to already, and that is the enhancement of our public health 
lab, which allowed us to hire personnel and purchase equipment 
and become a Level 3 lab. So we were able to respond to white 
powder and anthrax threats in October and November very 
rapidly. And as Dr. Hinrichs has already mentioned, we became a 
model for the CDC.
    One of the things he did not mention was we prepared a CD-
ROM for all of the hospitals in Nebraska to understand how to 
handle the white powder, the CDC took the CD-ROM and used it 
nationally, with our permission of course. But I mean it was a 
model that we were able to develop because of our grants that 
we received in 1999.
    He also did not mention that Tony Sambo, who was hired to 
be the director of our microbiology lab, was called by the 
Federal Government to Washington, DC, for 1 month to help in 
the investigation of the U.S. Postal Office for anthrax. He was 
their main advisor/coordinator.
    Because of what the CDC did for us in 1999, we were able to 
turn around and help the Federal Government in 2001. So we 
think there is a good, mutual symbiotic relationship here.
    Nebraska is a very rural State. At the start of this year, 
we had 16 county health departments that covered 22 of our 93 
counties. All response to bioterrorism or other infectious 
disease has to be local initially, followed by State, followed 
by Federal. Eighty of those counties had no ability to respond, 
91 had no epidemiological capacity. Thanks to the foresight of 
our legislature and our Governor, we were able to pass a bill 
that uses the tobacco funding money, some of the tobacco 
settlement money to be a big carrot, to enhance rural 
communities to form multi-county health districts composed of 
at least 30,000 people.
    Because of the events in the fall, this process also became 
very accelerated and in the last 6 months, we have formed 16 
new multi-county health districts that now cover 84 of our 
counties. They are very early in their process and a lot of the 
CDC money that we will receive will be going out to these new 
county health districts to help them build their infrastructure 
so they can help us.
    Some of the money will be used to hire epidemiologists for 
our two large county health departments, that being Lincoln and 
Omaha, and those will be our deputies should we need them in 
rural Nebraska. They will become our epidemiologists to help 
rural Nebraska as an example of how we used the CDC funding.
    We are taking the CDC dollars and trying to find unique 
situations in Nebraska. As an example, we are very rural, you 
have already heard, Chairman Horn, about the two medical 
schools located both in Omaha, they have a high degree of 
national recognition for their abilities to educate on 
infectious disease and they have formed a coalition at my 
request, along with multiple other people. They will be in 
charge of the money that we will be using for education of 
health professionals should the need arise.
    The red light is on, I will stop. I would like to thank the 
U.S. Government for funding these activities. I would ask that 
you strongly consider continued funding. Public health has kind 
of been on the back burner for so long, it is going to take 
consecutive years to buildup the capacity that we so 
desperately need. We cannot afford not to be totally prepared. 
The State that is the least prepared
for bioterrorism becomes the weakest link in the Nation's 
defense against bioterrorism because of our mobile population. 
We must make sure that all States respond to this.
    Thank you very much.
    [The prepared statement of Dr. Raymond follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.056
    
    [GRAPHIC] [TIFF OMITTED] T7138.057
    
    [GRAPHIC] [TIFF OMITTED] T7138.058
    
    [GRAPHIC] [TIFF OMITTED] T7138.059
    
    Mr. Horn. Mr. Chairman, I would like to ask one question in 
particular, and that is the M.D. practicing out in the 
prairies. What are we doing to get either broadband or some 
form of telephone type of information? Have we done that?
    Dr. Raymond. We are in the process. Actually for 17 years, 
I was one of those prairie doctors, so I know what it is like 
out in rural Nebraska, that is where my heart really is. Even 
though the people are in Omaha and Lincoln, my heart is in 
rural.
    I actually met very early this morning with a group that 
has a proposal to help us link, via satellite communications 
with all the rural hospitals. We are--right now, we have 
contracts out to every hospital in Nebraska, that we will 
provide them money from the CDC grant for e-mail addresses, 
computer enhancement and faxes. Also, in our county health 
departments, the same process.
    That is the best I can do this summer, but we will use 
other money from the Health Alert Network part, that is Focus 
Area E, I believe of the grant, will be used to actually get 
online instant video communications to all of our hospitals to 
start with. We would like to obviously expand beyond that, but 
we are taking steps as we go along. So I think that will be our 
next step for those particular dollars. It is very important.
    Mr. Horn. Thank you.
    Mr. Terry. Thank you. Since you are the chairman, you can 
break in whenever you want.
    Next, the Director of Region VII of FEMA, Federal Emergency 
Management Agency, Richard Hainje. Thanks for being here today.
    Mr. Hainje. Thank you. Good morning, Congressman Terry, 
thank you for this opportunity and, Chairman Horn, thank you.
    I am pleased to be with you here today to discuss the 
challenges that are facing emergency managers in their efforts 
to become better prepared to respond to acts of terrorism.
    FEMA is the Federal agency responsible for leading the 
Nation in preparing and responding to and recovering from 
disasters. Our success depends on the ability to organize and 
lead a community of local, State and Federal agencies and 
volunteer organizations. We know who to bring to the table when 
a disaster strikes in order to ensure a more effective 
management of the response.
    Region VII includes the States of Iowa, Kansas, Missouri 
and Nebraska, representing a population of approximately 13 
million, with the majority residing in the urban areas. Risks 
in Region VII include flooding, tornadoes, earthquakes, 
hazardous materials and the potential for terrorist attacks.
    The management and control of hazardous materials is a 
major issue in Region VII. The North Platte, Nebraska facility 
is one of the largest railroad terminals in the world and it 
has over 80,000 shipments of hazardous materials per year.
    FEMA's responsibility is to coordinate Federal, regional 
and State terrorism-related planning, training and exercise 
activities. All of the States in Region VII have implemented 
proactive and aggressive actions in response to terrorism 
threats that have emerged since September 11th. Many States 
have committed substantial amounts of staff and their own 
financial resources toward preparing for weapons of mass 
destruction events.
    The President has requested $3.5 billion in the fiscal year 
2003 budget to support first responders. That is the first 
responder grant initiative. These funds would help plan, train 
and acquire needed equipment and conduct exercises in 
preparation for terrorist attacks or other emergencies.
    Right now, we are developing a streamlined and accountable 
procedure that would speed the flow of funds to the first 
responder community. The President is requesting funds in the 
2002 spring supplemental to support the first responder grant 
initiative, including $175 million to be provided to State and 
local governments to upgrade and sometimes to develop for the 
first time comprehensive emergency operation plans.
    We recognize that biological and chemical scenarios would 
present unique challenges to the first responder community. Of 
these two types of attacks, we are in many ways better prepared 
for a chemical attack because such an incident is comparable to 
a large-scale hazardous materials incident.
    Bioterrorism, however, presents the greater immediate 
concern. With a covert release of a biological agent, the first 
responders become hospital staff, medical examiners, private 
physicians or animal control workers instead of the traditional 
roles of police, fire and emergency medical workers.
    When September 11th showed us how a commercial jetliner 
could be used as a weapon of mass destruction, the Nuclear 
Regulatory Commission and FEMA began to work jointly on the 
preparation of protocols and procedures for dealing with the 
consequences of a similar attack on a nuclear power plant.
    The functions that FEMA performs will be a key part of the 
mission of the new Department of Homeland Security. As you 
know, FEMA is proposed to go into--as the complete agency, into 
the Department of Homeland Security. The new department will 
strengthen our ability to carry out important activities such 
as building the capacity of State and local emergency response 
personnel to respond to emergencies and disasters of all kinds.
    The structure of this newly proposed department recognizes 
that FEMA's mission and core competencies are essential 
components of homeland security. For this reason, Congress can 
continue to be assured that the Nation will be prepared to 
respond to acts of terrorism and will coordinate its efforts 
with the entire first responder community. It is FEMA's 
responsibility to ensure that the National Emergency Management 
System is adequate to respond to the consequences of 
catastrophic emergencies and disasters regardless of the cost.
    Terrorism presents tremendous challenges. In recent years, 
we have made tremendous strides in our efforts to increase 
cooperation between the various response communities, from fire 
and emergency management to health and medical to hazardous 
materials. We continue to work with our partners in Federal, 
State and local government to improve our response and recovery 
capabilities from any disaster, whether natural or manmade.
    Thank you for this opportunity.
    Mr. Terry. Take. I appreciate that, Mr. Hainje.
    Next, I want to introduce Gary Gates from Omaha Public 
Power District. Mr. Gates is the vice president of the Nuclear 
Division, oversees security at the Fort Calhoun Nuclear Power 
Plant and motivational speaker. Mr. Gates.
    [The prepared statement of Mr. Hainje follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.060
    
    [GRAPHIC] [TIFF OMITTED] T7138.061
    
    [GRAPHIC] [TIFF OMITTED] T7138.062
    
    [GRAPHIC] [TIFF OMITTED] T7138.063
    
    [GRAPHIC] [TIFF OMITTED] T7138.064
    
    [GRAPHIC] [TIFF OMITTED] T7138.065
    
    [GRAPHIC] [TIFF OMITTED] T7138.066
    
    [GRAPHIC] [TIFF OMITTED] T7138.067
    
    [GRAPHIC] [TIFF OMITTED] T7138.068
    
    [GRAPHIC] [TIFF OMITTED] T7138.069
    
    [GRAPHIC] [TIFF OMITTED] T7138.070
    
    Mr. Gates. Thank you, Chairman Horn and Congressman Terry. 
As Congressman Terry indicated, my name is Gary Gates, I am the 
Chief Nuclear Officer for the Omaha Public Power District and 
as a result, have responsibility for oversight of our Fort 
Calhoun Nuclear Station. As such, I am acutely aware of the 
focus being placed on security since September 11th.
    Others will address the biological or chemical agents and 
dangers they would pose. What I would prefer to do this morning 
is focus on the area of intergovernmental relations that I 
believe is working very well because of communications. To a 
certain degree, I am a customer of many of the presenters that 
you have heard this morning.
    On September 11th, we went to our highest level of 
security, as did all other nuclear plants, and we have since 
built on that. Many of the measures taken at Fort Calhoun, 
including increased staffing and increased barriers, were 
implemented across our country. We have conducted length and 
ongoing discussions with numerous agencies to define and 
redefine areas of responsibility. We have taken a number of 
internal steps that I am not at liberty to discuss the details 
of in a public forum, for obvious security reasons, but they 
are significant.
    Even before the events of September 11th, OPPD was working 
with State and local officials in Nebraska and Iowa to assure 
our neighbors that our operations are safe and do not pose a 
threat to the health and welfare of the public. This level of 
communication and trust has provided a sound foundation on 
which to grow.
    Our relationship with the State, local and Federal 
officials has become even stronger as a result of September 
11th, increasing a level of cooperation and communications that 
already existed. By communicating, we mean that each party 
letting the other know what is being done and what needs to be 
done to enhance our preparedness to respond to an emergency. 
Our security office at Fort Calhoun Station has increased 
contact with the NRC, the Nuclear Regulatory Commission, to 
discuss issues of security since September 11th. 
Representatives of the NRC attend briefings from Homeland 
Security and various other agencies, contributing to that 
effort to pass that along. NRC Region IV, of which we are a 
part, has been very proactive through the Regional 
Administrator, in maintaining close communications regarding 
security issues.
    Following September 11th, we held discussions with the 
Washington County Sheriff's Office, the Nebraska State Patrol 
on additional security, including more patrols and a heightened 
presence in the area. We met with members of the Nebraska 
Adjutant General's Office and familiarized them with our 
security organization, and should the need arise, how the 
National Guard could quickly and most efficiently become part 
of that security effort. In fact, General Lemke personally 
toured the site to confirm that the contingency plans were 
adequate.
    We also began daily communications with security 
organizations in other plants to share our knowledge and learn 
from them. This peer-to-peer contact is continuing today 
through our contacts at the Nuclear Energy Institute in 
Washington, DC.
    Regular, open communications are the key to successful 
completion of task. A wise individual once said that the job 
gets done more easily when nobody worries about who gets the 
credit. And that is the case here.
    Just to give you an idea of the scope of the agencies that 
we have interfaced with, the Nebraska and Iowa State Troopers, 
our own and other nuclear security officers, National Guard 
officials, the NRC, the FBI, Federal Aviation Administration, 
the Bureau of Alcohol, Tobacco and Firearms, FEMA, Nebraska 
Emergency Management Agency, Iowa Emergency Management, county 
emergency directors on both sides of the Missouri River, the 
Coast Guard and more. We will continue to effectively monitor 
these efforts and continue this communication. It is a true 
team approach.
    Knowledge is power and by passing on the knowledge to the 
men and women on the front lines, front offices and backrooms 
of these organizations, we have given them more power to work 
against terrorism. In return, these women and men give us the 
benefit of their diverse points of view on ways to improve 
security.
    In summary, communications, training and the drills that we 
do on a very frequent basis build a relationship in which to 
continue positive intergovernmental relations.
    We know that this approach of industry and government 
cooperation involving Federal, State and local officials is the 
right approach for our utility and the people we serve.
    Thank you for your time.
    [The prepared statement of Mr. Gates follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.071
    
    [GRAPHIC] [TIFF OMITTED] T7138.072
    
    [GRAPHIC] [TIFF OMITTED] T7138.073
    
    [GRAPHIC] [TIFF OMITTED] T7138.074
    
    Mr. Terry. Thank you, Mr. Gates, appreciate your time.
    Next, I have the honor of introducing Steve Lee. Steve has 
been with Douglas County Emergency Management, Douglas County 
Health Agency for as long as I can remember. How long, Steve, 
have you been there?
    Mr. Lee. Well, I am starting my 30th year last month.
    Mr. Terry. That is what I thought. I appreciate you taking 
the time. Mr. Lee, obviously in his positions with Douglas 
County Health and Douglas County Emergency Management, is at 
the hub of the activity in case of any emergency, albeit any 
time of terrorist attack or an actual emergency. So Mr. Lee, we 
appreciate that you took time out of your busy day to be with 
us today. You may begin.
    Mr. Lee. Mr. Chairman, Representative Terry, thank you for 
the invitation. I will read my remarks, which will prevent me 
from rambling.
    For the record, I am the Director of Douglas County 
Emergency Management Agency. I do not have a direct affiliation 
with the Health Department, although we work quite closely.
    One of the beautiful things about America is its ability to 
meet every challenge it faces. Most recently, in preparing for 
bioterrorism attacks, we have begun to plan for what may indeed 
be our most daunting and long-term battle. We are blessed with 
the freedom, talent, ingenuity and resources to meet this 
challenge, but it will require an unselfish and unified effort 
by those individuals, organizations and governments charged 
with the safety, security and protection of our citizens.
    The potential scenarios involving bioterrorism require an 
enhancement of local and State capabilities to manage the 
threat. Issues that may be encountered include: Developing 
response models that include the occurrence of a chemical or 
biological attack with no advanced warning. Difficulty in 
identifying the agent. Development of a rapid and reliable 
public health surveillance system. Determining the most 
appropriate means of protection. Decontaminating, sheltering 
and treating victims, first responders, incident sites and the 
environment. Plans and facilities for the decontamination of 
the worried well population. Identifying and providing 
appropriate treatment, both initial and definitive. Identifying 
and providing diverse collateral requirements; for example, 
public safety, mental health issues, ventilation systems and so 
forth. Determining the appropriate disposition of the deceased. 
And working more closely with the media to address issues such 
as mass panic and decontamination procedures.
    First responders and health systems, including State and 
local health departments, need specific protective equipment 
and training and the ability to: Identify the agent. Learn 
appropriate methods for safe extraction and transportation. 
Store, disburse and distribute antidotes. Decontaminate, triage 
and provide primary care. And provide for forward movement of 
victims when treatment centers reach capacity.
    We now know that the real or perceived release of a 
biological threat such as anthrax has a debilitating and 
predictable impact on a community. It does not require the 
release to take place in a densely populated area or a highly 
visible place of assembly. We have seen how easy it is to 
overwhelm our support systems. A wide outbreak of infectious 
disease would threaten the ability of emergency and medical 
personnel to respond. Personnel within these facilities would 
be at risk of infection themselves, especially prior to a 
certain diagnosis of the disease. The collection and disposal 
of contaminated material presents additional long-term 
problems.
    The problems cited above, along with other issues and 
concerns too numerous to mention here, make it seem as though 
there is no way this task could be accomplished. Although no 
plan will completely address and solve the menace of 
bioterrorism, I believe we can go a long way toward providing a 
reasonable, acceptable solution. In fact, the Federal 
Government already has a model in place that, if followed, 
serves as an excellent guide for addressing the planning 
requirements for bioterrorism. It is called MMRS or 
Metropolitan Medical Response System. MMRS provides for a 
collaborative development of an effective system capable of 
responding to chemical, biological, radiological and nuclear 
incidents. It requires coordination among fire, law 
enforcement, emergency management, hospitals, laboratories, 
public health officials, poison control centers, mental health 
professionals, infectious disease experts, surrounding 
communities, States and the Federal Government.
    Three years ago, a contract provided to the city of Omaha 
through the Federal Department of HHS enabled the development 
of the Omaha Medical Response System, referred to as OMMRS. It 
was created following a series of three exercises conducted 
under the authority of the Nunn-Lugar-Domenici Domestic 
Preparedness Act. The after-action reports highlighted the 
community's need to enhance its WMD response capability, 
particularly the areas of public health, communications and 
hospital preparedness. OMMRS represents over 50 agencies, 
departments and institutions. By virtue of the ongoing effort 
of its 10 active subcommittees, OMMRS is in a position to 
inform you exactly what our community requires in meeting the 
bioterrorism threat. You may wince at the final tally, but it 
is accurately and honestly arrived at.
    The two most important words I have used in describing a 
successful bioterrorism preparedness program are: unselfish, 
and unified. All localities, regional and States, should be 
encouraged to utilize MMRS or an equivalent concept. No single 
entity can provide for or meet the requirements that are needed 
for a bioterrorism plan. Left alone, agencies will fight for 
funds, reinvent wheels, refuse to share information and end up 
with plans developed in isolation that will not work.
    I will conclude by saying that last, the Federal Government 
can do four additional things: Congress must insist on 
cooperation, not competition, among the Federal agencies and 
departments and see to it that they are singing the same song. 
Continue to support efforts to increase the public health 
infrastructure in order for communities to effectively address 
acts of bioterrorism and other public health threats. Offer an 
incentive to business and industries to contribute to the 
cause, whether it is money, material or personnel. And last, 
assure the public that these issues are being addressed and 
develop programs that enable the citizens to make a 
contribution by being actively involved, beyond just being more 
vigilant.
    Thank you.
    Mr. Terry. Very good, appreciate that testimony.
    Next I have the honor of introducing Pete Neddo, who is the 
manager of safety and security for Metropolitan Utilities 
District. Mr. Neddo.
    [The prepared statement of Mr. Lee follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.075
    
    [GRAPHIC] [TIFF OMITTED] T7138.076
    
    [GRAPHIC] [TIFF OMITTED] T7138.077
    
    Mr. Neddo. Good morning. Thank you, Congressman Terry and 
Chairman Horn, for asking the District to be represented here. 
As mentioned, I am the Director of Safety and Security for the 
Metropolitan Utilities District, a gas and water public utility 
for Omaha.
    In addressing the issue here this morning of how the 
Federal Government is assisting the State and local governments 
in preparing for bioterrorist attacks, we found that while 
there is some assistance there, it is somewhat limited.
    While the EPA has provided some grant money to water 
utilities for threat assessments, that money can only be used 
for threats, so there is not a lot of flexibility in how we can 
use that to enhance security and make other types of 
improvements. We have received excellent information, 
educational materials and such, to use to educate our employees 
and our customers. That has been very helpful.
    In addition to that, Sandia National Labs, in conjunction 
with the American Water Works Association Research Foundation 
has provided an excellent risk assessment methodology for us to 
use in evaluating the water systems. They have also provided 
some training for member companies. I think that should be 
expanded for all water utilities, because it is an excellent 
model and should be used by all, I think.
    We have incurred significant increases in security costs 
since September 11th. The cost of security guards has tripled. 
Improvements have been initiated in many areas, security 
evaluations, improvements and other enhancements are ongoing. 
As we evaluate our systems, we are going to incur more costs to 
protect the water and gas supplies for Omaha. Our needs will be 
met, costs are expected to be significant.
    The District recognizes the responsibility to its 
customers, the public as well as the employees and we will make 
the necessary improvements to continue to look for ways to 
ensure gas and water supplies are protected. Critical to this 
obviously is fire protection. We will work with the fire 
departments to ensure that is available to them.
    The support from local law enforcement, the FBI and other 
enforcement agencies has been excellent. We are kept informed 
on various activities through advisories, other methods, 
responses to our various inquiries has been outstanding, 
especially from local law enforcement.
    We are also in coordination with Offitt Air Force Base, 
looking at their needs and their concerns and working with them 
to address those needs so that will be ongoing and we feel is 
very critical.
    Our commitment to security is strong, continual and any 
assistance, whether monetary or otherwise is beneficial and can 
only serve to expedite our efforts. At the present time, 
Federal assistance, as I mentioned, has been limited to the EPA 
grants. We would like to see perhaps more flexibility in using 
any moneys that are made available and use those to enhance 
hardware, physical security efforts and those.
    Thank you for your time this morning. That is all that I 
have.
    Mr. Terry. Thank you, Mr. Neddo.
    Mr. Horn. Mr. Hainje, I am interested in the applications 
people are applying for the $3.5 billion allocated in the first 
responder grant funds. Now you represent both urban America and 
rural America. Do you feel the formulas they are using across 
the Nation make sense? And if so, what is the formula?
    Mr. Hainje. At this time, they are still working on those 
formulas. They have had quite a bit of input. They brought in 
State emergency management directors, local police, fire 
representatives, a few elected officials to have some sessions 
to talk about what that process should be.
    The only indication that I have had so far of how that will 
work that would probably be the most comforting is that the 
States themselves are going to be able to do planning on how to 
access that money and how to best use it. So there is a lot 
of--there will be a lot of local input. There will be a 
tremendous amount of State input, State by State.
    Mr. Horn. Of course, the mayors will then complain that the 
Governor is doing it and they want to do it. And that is a 40-
year-old argument.
    Mr. Hainje. That is an argument that I believe you will 
hear more about than I will in my office probably. You know, it 
is something that--FEMA presently in emergency operations works 
very extensively with the State emergency management folks, who 
are part of the Governor's office typically. And that is the 
relationship that we have had most common.
    In some of our mitigation activities, we work directly with 
locals, but we have encouraged the States--the States are in 
the process of developing plans for this and the format is 
expected to be easily accessible to local and State government.
    Mr. Horn. Mr. Neddo, your responsibilities for water are 
great. When I was in Europe a few months ago, you perhaps read 
about this, there were four terrorists that were trying to 
poison the water supply of Rome. They caught them, but we are 
open in many parts of America, you have big reservoirs and all 
the rest.
    What are we doing to assure security of your water supply 
here?
    Mr. Neddo. Well, as I mentioned, the security guard service 
has tripled, our costs in that area have tripled. Our manning 
in that area has tripled. We have installed a number of 
physical security devices--card access readers. We have 
controlled access into many of our areas, we have realigned our 
tours and those kinds of things that we generally make 
available to the public and certainly tightened controls on 
those.
    We are in the process of completing threat assessment 
evaluations to determine where our critical areas are and where 
maybe our weakest points are and are looking at enhancing 
physical security in those areas.
    We are, in fact, using the Sandia methodology which really 
fits well with what we are doing here.
    But you are right, it is very unnerving to drive by some of 
our water facilities and see how easy they are to be accessed. 
We are continuing to evaluate, we will be installing more 
security cameras, detection, we will operate under a fairly 
simple detect, delay and respond risk assessment plan.
    Mr. Horn. Thank you.
    Mr. Terry. Let me just followup. Is there also a process 
for testing, continuous testing of the water so if there is an 
incident that occurs that goes undetected by cameras and a 
guard, that there is perhaps a tertiary level of containment 
and detection?
    Mr. Neddo. Yes, there is testing. We are also looking at 
expanding our testing. In fact, even continuous monitoring at 
various points throughout the water system. That is a very good 
question.
    Mr. Terry. Do you have any more questions?
    Mr. Horn. No, that is it.
    Mr. Terry. Lieutenant Governor Heineman, Chairman Horn 
raised one of the fundamental questions regarding how the money 
will be distributed. There will be a formula--I do not know. Do 
you know how much of that $3.5 billion will come to the State 
of Nebraska? I have heard from our local police and fire, who 
are now trying to use different grants to avoid the political 
controversy of having to ask the State for dollars. Is there a 
process that has been developed at the State to get the dollars 
in a, let me say, non-political way, to those that are in most 
need of those dollars?
    Lieutenant Governor Heineman. That is a pretty significant 
question, Congressman Terry. Let me try to take that one on.
    Mr. Terry. You have 30 seconds. [Laughter.]
    Lieutenant Governor Heineman. Thirty seconds. It is called 
Governor Mike Johanns--no. In our State, everything we have 
tried to do is to take a comprehensive view. As I talk to my 
counterparts in other States, I am amazed that, oh, you all 
actually get in the same room and you talk to each other. I 
mean their emergency management does not talk to the National 
Guard, does not talk to the State Patrol, does not talk to 
Health and Human Services or whatever.
    As you well know, in our State, we have a foundation that 
for many years, regardless of political party, we are all in 
there trying to do what is best and what is right for the 
State. So I do not think that has been a problem for us. About 
75 percent of money that we will get--and I do not know the 
specific amount out of the formula--will go to local first 
responders. Again, I mentioned in my testimony, we are already 
beginning discussions on this new wireless communication 
system. Can all of us agree in advance that a portion of those 
dollars will go to that system?
    And so I think the coordination and the cooperation that 
you have heard about all morning long is very true in Nebraska, 
because we tend, when elections are over, to take off the 
political hats and we are focused on doing what is right for 
the State.
    And we have a situation in our State, three Congressman and 
two Senators, we know each other all very, very well from a 
variety of previous positions. This afternoon, they are all 
going to be talking, for example, on the drought situation 
facing Nebraska. So the communications that occurs in our 
State, I think, has avoided the difficulties that I hear from 
my counterparts in other States. We are going to make sure that 
money goes to the local units of government. But I also want to 
emphasize, there is going to be a national homeland security 
strategy. In order to carry that out, to have an effective 
command and control, I think you have got to use the chain of 
command, which basically flows from our national level to our 
States to our local units of government.
    Now maybe in the State of New York where they have 
different kinds of challenges, they have different problems, 
but I will say in Nebraska, I do not believe that will be one 
of ours.
    Mr. Terry. Well, I do think that what separates us probably 
from other States and their degree of preparedness is our 
ability to communicate. For some reason, that has just been the 
culture in Nebraska and that really helps us.
    A tool of communication, as you have mentioned and Dr. 
Raymond mentioned, is the wireless communications system so all 
emergency entities, whether it is local police and fire 
departments from Omaha to wherever, and also I would assume, 
Dr. Raymond, medical information that perhaps is developed here 
at University of Nebraska Medical Center laboratories and then 
needs to be communicated to various parts of Nebraska. That 
wireless communication system, Lieutenant Governor Heineman, I 
think is key.
    I am just wondering where we are in that process of 
developing it. We have written a letter asking for 
appropriations. Assuming we do not get that this year, where is 
the State. And also have you thought about using--you mentioned 
satellite, but there is new wireless terrestrial technologies 
too that will allow not just for land-based communications, but 
internet communications, videoconferencing, which I think would 
be a tremendous asset.
    Lieutenant Governor Heineman. Congressman Terry, I fully 
expected you were going to announce that grant to us this 
morning and that everything would be--we would be ready to move 
forward. But we do appreciate all the support we are receiving 
and your efforts and Senator Hagel and the others of our 
delegation.
    One of the hats that I think we have done very well in this 
State--the Lieutenant Governor is responsible not only as 
director of homeland security, but I serve as chairman of the 
Nebraska Information Technology Commission, I will be a member 
of the board on this wireless communications board. And so that 
gives the Lieutenant Governor of this State the opportunity to 
keep this comprehensive focus, to look at the variety of 
technologies, to span not only what I will say is our 
bioterrorism concerns, but our information technology needs in 
general, related to the Med Center, the University of Nebraska, 
our distance education learning, videoconferencing. We want to 
take advantage of all those techniques and I would just share 
with you that if we do not get the money this year, we will 
continue to move forward with our local efforts involving our 
cities and counties where they are going to use their bonding 
authority to move forward in some of these equipment purchases. 
But particularly, the infrastructure costs that we talked to 
you about, if we could begin to move forward on that, that will 
take us a long ways down the road of implementing a new 
wireless communication system.
    Mr. Terry. Well my time for questions has run out. If I 
could ask the chairman for time for one more question.
    Mr. Horn. Certainly.
    Mr. Terry. Thank you, sir.
    I would like to ask Mr. Hainje, one of the themes that we 
have picked up on today is that in order to be successful in 
securing any community, whether it is in Nebraska or anywhere 
in this Nation, is the need for full cooperation and really all 
levels of government, whether it is Douglas County with Mr. 
Lee, city of Omaha, State of Nebraska, the Federal Government. 
You represent the link of the Federal Government to the State 
and the other links. Historically there has been, at times of 
emergency, tensions that arise between the Federal link and the 
local and State links.
    What efforts are being taken in regard to terrorism 
preparedness, bioterrorism, chemical, nuclear, to avoid those 
type of tensions so we can all act as members of the same team?
    Mr. Hainje. I believe the first thing is that Director 
Allbaugh, when he immediately came in, one of the first things 
that he talked about was for FEMA specifically to not be late 
arriving on the scene, if you will, when something begins to 
happen. So we actually are attempting to open up--on the after-
the-fact side of things, open up the communication and open up 
the cooperation even quicker.
    Going way back in history to like Hurricane Andrew, there 
was a timeframe between when an incident happened and the 
Federal Government assistance arrived, very controversial at 
the time. It changed greatly before the floods of 1993 and it 
has now gotten to the point now where in major events, 
certainly a weapons of mass destruction type event, FEMA would 
be there nearly immediately on those scenes.
    And also just for the record, if you will, what FEMA does 
is set up the emergency support functions in Washington or in 
the region and bring in the Federal agencies so that we can 
start offering help. If you are more familiar with working with 
HHS, HHS will be there, if it is an issue that deals with them. 
And we can start offering that support very quickly.
    We are gearing up considerably with the new Office of 
National Preparedness our training and exercise and 
coordination abilities. This is something that was prior to 
September 11th, that the President asked Director Allbaugh to 
form that and the Office of National Preparedness' entire goal 
is to work more closely with people at all levels, whether it 
be specific to, for example, like Mr. Gates referred to, 
nuclear preparedness around a facility and how that all works, 
increase the exercises and the communication and plus, really 
the big thing though, is we are gearing up in the first 
responder area. That will be a major, major impact, because in 
order to do the first responder grant initiative correctly, we 
will have to work closely with agencies nationwide on what 
their plans are and offer the kind of support they need.
    So we are trying to do things on the response side, if you 
will, and the recovery side, to make ourselves more responsive 
and as responsive as we can be. And we are trying to work 
closely with our Federal partners and the Federal response plan 
is the key to that and the first responder initiative 
especially is going to really bring a lot of this together and 
hopefully facilitate a lot of discussion.
    Mr. Terry. Thank you for that answer. Thank you for the 
extra time, Mr. Chairman.
    [The prepared statement of Ms. Hecker follows:]
    [GRAPHIC] [TIFF OMITTED] T7138.078
    
    [GRAPHIC] [TIFF OMITTED] T7138.079
    
    Mr. Horn. I want to thank a number of people, without whom 
this hearing would not have been made. And let me start in with 
the subcommittee itself. I believe we have J. Russell George, 
our staff director and chief counsel; and Bonnie Heald, is on 
the left of Mr. Terry, and she is the deputy staff director; 
Chris Barkley is on our--where is Chris, OK, he is running 
around solving problems; and then Justin Paulhamus is the 
majority clerk. We have Yigal Kerszenbaum, a subcommittee 
intern. And I want to thank particularly Mr. Terry's District 
Director, Molly Lloyd.
    And our host here, we are most grateful, I just love this 
facility and that is the University of Nebraska Medical Center.
    And then you have seen this gentleman over here, the court 
reporter, Bill Warren. Bill, you have escaped me a minute--
well, maybe he has moved in the back--oh, here he is. He goes 
with us wherever we go and the transcript is right.
    And we are going to have to ask your indulgence because we 
have a meeting at 11 with the Strategic Command to see them. 
You have here a number of questions we would like to ask, but 
if you would not mind, we will send you the questions and just 
at your leisure, put an answer in there and we will put it in 
the record at this point, because you have put some very 
important things before us.
    And I particularly am delighted that Lee Terry could 
provide here the leadership. He is one of the finest U.S. 
Representatives I have ever seen and I have known him since day 
one when he arrived.
    Mr. Terry. And I did not even write that.
    Mr. Horn. That is true. I got the PR guy from the 
Lieutenant Governor's Office. [Laughter.]
    Your interest in the public interest to do the right thing, 
that is what he has done. And you are lucky to have a person 
like that. So thank you, sir.
    Mr. Terry. Thank you, Mr. Chairman.
    Mr. Horn. With that, we are adjourned.
    [Whereupon, at 11:05 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
